SIGAR                           Special Inspector General for
                                 Afghanistan Reconstruction




                                       SIGAR 14-62 Inspection Report



      Baghlan Prison: Severe Damage to $11.3
      Million Facility Requires Extensive Remedial
      Action




                                                         MAY
                                                    2014
SIGAR 14-62-IP/Baghlan Prison
                                                     MAY 2014



SIGAR
                                                     Baghlan Prison: Severe Damage to $11.3 Million Facility Requires
                                                     Extensive Remedial Action

                                                     SIGAR INSPECTION 14-62
Special Inspector General for
Afghanistan Reconstruction                           WHAT SIGAR FOUND
                                                     After construction of the Baghlan prison was completed in November
WHAT SIGAR REVIEWED                                  2012, building settlement occurred, which led to serious structural
On September 28, 2010, the Department                damage including wide cracks to three buildings. As a result, one building
of State’s Bureau of International                   was demolished. Two other buildings also have collapsing walls and
Narcotics and Law Enforcement (INL)                  cracked structural beams and columns and will likely need to be rebuilt.
awarded a contract to Omran Holding                  The Department of State’s Bureau of International Narcotics and Law
Group (OHG), an Afghan firm, to build a              Enforcement (INL) and its contractor, Omran Holding Group (OHG), an
495-inmate prison in Baghlan province.               Afghan firm, do not agree on the cause of the building settlement and
OHG completed construction of the                    remain in negotiation regarding OHG’s responsibility for repairing the
Baghlan prison on November 8, 2012.                  facilities and assuming the cost of those repairs. Nonetheless, both
                                                     parties agree that OHG did not fully comply with all contract requirements.
For this inspection, SIGAR assessed (1)              For example, OHG failed to construct a required stormwater management
INL’s management and oversight of                    system and substituted lower-grade plumbing materials that had been
construction, and (2) whether the facility           prohibited by INL. OHG also failed to deduct 10 percent from its billed
is being used as intended and                        invoices to create a retainage fund as required by the contract. This led to
maintained.                                          an $807,254 shortfall in funds, which should have been retained for
SIGAR conducted its work in Kabul,                   INL’s protection in the event of a contract dispute.
Afghanistan from January through May                 Many of the construction deficiencies may be the result of fraudulent
2014, in accordance with the Quality                 actions by the project’s original contracting officer’s representative—a
Standards for Inspection and Evaluation              former embassy employee—and, possibly, OHG personnel. SIGAR is
published by the Council of the Inspectors           currently conducting a preliminary inquiry to determine whether any OHG
General on Integrity and Efficiency. SIGAR           or embassy officials may have been complicit in these alleged activities.
inspectors were unable to visit the prison           In 2013, the contracting officer and INL appointed a new contracting
because of security conditions and                   officer’s representative and lead engineer for Baghlan prison. INL also
instead relied upon INL and contractor               took measures to correct problems at the site, such as the missing
site visit reports, interviews with INL              stormwater management system. These steps are positive, but SIGAR
officials, and other project                         remains concerned about an unaddressed construction deficiency—
documentation.                                       specifically, the use of unreinforced brick walls between the column




                                                                                               Internal View of
                                                                                               Damage to
                                                                                               Building 17




                                                                                               Source: INL Technical
                                                                                               Project Evaluation
                                                                                               Report, dated August
                                                                                               18, 2013




       For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
supports of the structures, which violates the International Building Code (IBC) standards called for in the
contract. American Concrete Institute manuals, referenced by the IBC, do not allow building unreinforced
walls in a seismic zone. According to U.S. Geological Survey data, Baghlan prison is located in the second
highest earthquake hazard zone in Afghanistan.
In April, SIGAR alerted the Secretary of State and the U.S. Ambassador to Afghanistan to this problem and
suggested that INL rebuild the structures at Baghlan with steel reinforced masonry. In response, INL
provided photographs that it said showed the buildings had been built using reinforced masonry. To the
contrary, these photos demonstrate that the concrete columns at Baghlan were improperly constructed
and, moreover, that the method of demolition was unsafe. The methods and materials used to place the
concrete in the columns caused voids in the concrete that exposed the reinforcing steel, seriously
compromising the column strength. Moreover, the building’s heavy concrete roof was left in place, while
portions of the brick walls that help support the roof were removed. INL has informed SIGAR that it intends
to rebuild any structures at Baghlan in conformance with the original design specifications. However, in
SIGAR’s view, INL’s apparent reluctance to use reinforced masonry to rebuild Baghlan prison presents a
risk to both prisoner and worker safety.
Despite extensive structural damage, the prison is being used. Furthermore, the prison, which was originally
designed for 495 inmates, is overcrowded, with an INL-reported current population of 777. The prison also
faces two major maintenance issues, which both INL and contractor officials attribute to poor or non-
existent maintenance by the Afghan government. First, both diesel generators, which were designed to be
the prison’s exclusive sources of power, are non-operational. As a result, the prison is being powered by a
much smaller capacity generator that was purchased in July 2012 with the assistance of the International
Red Cross. Second, the prison’s sewer system is backed up with debris. INL is working to address these
problems by helping to fund a nationwide prison operation and maintenance program that will train mobile
maintenance teams—consisting of electricians, plumbers, masons, carpenters, and painters—to provide
maintenance services at various facilities throughout the region, including Baghlan prison.



   WHAT SIGAR RECOMMENDS
   To ensure prisoner safety and security and to ensure that the U.S. government receives the highest value
   for its contract dollars, SIGAR recommends that the Secretary of State direct INL to (1) recoup the
   $807,254 in invoice charges paid to OHG that should have been retained in order to protect INL in the
   event of a contract dispute, (2) require that any rebuilding at Baghlan prison comply with International
   Building Code and American Concrete Institute requirements regarding the use of steel-reinforced
   masonry walls, (3) determine the structural adequacy of the other buildings constructed under the
   contract and take action to repair or replace those found structurally inadequate, and (4) require the
   contractor to follow an INL-approved demolition safety plan.
   In commenting on a draft of this report, INL agreed with all four SIGAR recommendations and discussed
   the steps being taken to implement them. INL’s comments and SIGAR’s response are reproduced in
   appendix II.




For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
May 27, 2014


The Honorable John F. Kerry
Secretary of State

The Honorable James B. Cunningham
U.S. Ambassador to Afghanistan


This report discusses the results of SIGAR’s inspection to assess the Department of State’s
Bureau of International Narcotics and Law Enforcement’s (INL) management and oversight of
construction of the regional prison in Baghlan province. The inspection also discusses how the
facility is being used and maintained. This report recommends that the Secretary of State
direct INL to (1) recoup the $807,254 in invoice charges paid to OHG that should have been
retained in order to protect INL in the event of a contract dispute, (2) require that any
rebuilding at Baghlan prison comply with International Building Code and American Concrete
Institute requirements regarding the use of steel-reinforced masonry walls, (3) determine the
structural adequacy of the other buildings constructed under the contract and take action to
repair or replace those found structurally inadequate, and (4) require the contractor to follow
an INL approved demolition safety plan.
In commenting on a draft of this report, INL agreed with each of our report recommendations.
INL’s comments are presented in appendix II.
SIGAR conducted this inspection under the authority of Public Law No. 110-181, as amended,
and the Inspector General Act of 1978, as amended; and in accordance with the Quality
Standards for Inspection and Evaluation, published by the Council of the Inspectors General on
Integrity and Efficiency.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                             TABLE OF CONTENTS


Background .................................................................................................................................................................. 1 
INL and OHG Are Taking Steps to Address Construction Deficiencies, except for Major Defect in Unreinforced
Brick Walls ................................................................................................................................................................... 3 

Baghlan Prison Is Being Used Despite Structural Damage, and Maintenance Problems Require Attention ........ 6 
Conclusion.................................................................................................................................................................... 7 

Recommendations ...................................................................................................................................................... 8 
Agency Comments ....................................................................................................................................................... 8 
Appendix I - Scope and Methodology ......................................................................................................................... 9 

Appendix II - Comments from the Department of State’s Bureau of International Narcotics and Law
Enforcement .............................................................................................................................................................. 10 
Appendix III - SIGAR’s April 2, 2014 Alert Letter and INL’s Response .................................................................... 14 
Appendix IV - Acknowledgements ............................................................................................................................. 21 


PHOTOS

Photo 1 - Buildings 17, 18, and 19 at Baghlan Prison .............................................................................................. 1 
Photo 2 - Internal View of Damage to Building 17 ..................................................................................................... 2 
Photo 3 - Flooding at Baghlan Prison in April 2012 .................................................................................................. 2 

Photo 4 - Building 17 under Demolition Showing Brick Walls with a Small Amount of Reinforcing Steel ............. 4 
Photo 5 - Building 17 under Demolition Showing Brick Walls with a Small Amount of Reinforcing Steel ............. 5 
Photo 6 - Concrete Column with Voids and Exposed Reinforcing ............................................................................. 5 


ABBREVIATIONS

                    ACI                                      American Concrete Institute
                    FMT                                      Facility Maintenance Team
                    IBC                                      International Building Code
                                                             Department of State’s Bureau of International Narcotics and Law
                    INL
                                                             Enforcement
                    OHG                                      Omran Holding Group




SIGAR 14-62-IP/Baghlan Prison                                                                                                                                           Page i
Since 2009, the Department of State’s Bureau of International Narcotics and Law Enforcement (INL) has
funded the construction or renovation of five regional prisons in Afghanistan. Additionally, INL funds the
Afghanistan Corrections System Support Program, which assists the Afghan Ministry of Interior’s General
Directorate of Prisons and Detention Centers in developing the capacity to manage its network of prisons. The
program provides mentoring, advising, capacity building, and infrastructure support to the General Directorate
of Prisons and Detention Centers.
This inspection focuses on the regional prison in Baghlan province. Specifically, we assessed (1) INL
management and oversight of construction and (2) whether the facility is being used as intended and
maintained.
We conducted our work in Kabul, Afghanistan, from January through May 2014 in accordance with the Quality
Standards for Inspection and Evaluation, published by the Council of the Inspectors General on Integrity and
Efficiency. The engineering assessment was conducted by a professional engineer in accordance with the
National Society of Professional Engineers’ Code of Ethics for Engineers. We interviewed INL officials and
examined program documentation relating to each phase of construction including contract award, design,
construction oversight, and project close-out. We were unable to conduct a site visit to the prison due to
security conditions; however, we reviewed site visit reports filed by INL and contractor staff between
December 11, 2011 and January 22, 2014. Appendix I provides more detail on our scope and methodology.


BACKGROUND

On September 28, 2010, INL awarded a contract to Omran Holding Group (OHG), an Afghan firm, to build a
495-inmate prison in Baghlan province using a design created by Suraya Construction and Production
Company (Suraya) under a separate
contract. The original contract award to OHG     Photo 1 - Buildings 17, 18, and 19 at Baghlan Prison
was $8.8 million, but it increased to
approximately $11.3 million after a series of
contract modifications.1 OHG completed
                                                                 19              17
construction of the Baghlan prison on
November 8, 2012, within the expected
time, cost, and quality parameters, as                             18
determined by responsible INL officials.
Following construction, INL handed over the
facilities to Afghan correctional authorities
on November 11, 2012. The contract
required OHG to provide a 1-year warranty
following handover to the Afghan                 Source: May 2012 photo from INL Technical Project Evaluation
government. Subsequently, building               Report, dated August 18, 2013
settlement occurred, which led to serious
structural damage, including wide cracks to buildings 17 (detention section), 18 (male section), and 19
(maximum security housing). The causes of this settlement remain in dispute at this time.
Photo 1 provides an aerial view of the prison with the three most seriously damaged buildings marked. Photo 2
shows an example of damage to the interior of building 17, which was demolished due to safety concerns.


1 Eight contract modifications were issued over the life of the contract. The largest dollar modifications were 001 and 006.

Modification 001 added approximately $788,000 to the contract value for costs associated with adapting all plans to
accommodate an alternate building site selected by the Ministry of Interior after contract award. Modification 006 added
approximately $1.3 million to the contract, including $171,000 for the design and construction of a new channel for flood
mitigation and the remainder for a 6-month supply of diesel fuel.

SIGAR 14-62-IP/Baghlan Prison                                                                                        Page 1
Buildings 18 and 19 also have collapsing
walls and cracked structural beams and             Photo 2 - Internal View of Damage to Building 17
columns. Photo 3 shows the flooding
conditions in April 2012.
Building damage was first reported to the
INL contracting officer’s representative in a
letter from OHG, dated August 24, 2013.
The letter highlighted building 17 as a
particular concern and recommended that
it be demolished and rebuilt. In a response
letter dated September 4, 2013, INL’s
contracting officer expressed concern
about conditions at the prison and
reminded OHG that corrective action
needed to be initiated under the contract’s
warranty clause. In addition, on October 2,        Source: INL Technical Project Evaluation Report, dated August 18,
2013, INL requested a written plan of              2013
action from OHG detailing planned repairs
and/or rebuilding to correct the extensive
damage documented by a September 7,
2013, INL structural damage report.2
                                                   Photo 3 - Flooding at Baghlan Prison in April 2012

OHG responded to INL on October 31,
2013, stating that, while accepting
responsibility under the warranty provision
for five specific items, including the need to
install a stormwater management system,
it did not agree that structural repairs fell
under the contract’s warranty. OHG stated
that the building settlement resulted from
unexpected flood conditions at the prison
and other factors beyond OHG’s control,
such as prisoner abuse of installed
plumbing fixtures and poor sewer system
maintenance by Afghan authorities. INL’s         Source: OHG Daily Report, dated April 24, 2012
position is that the primary causes for
building settlement were improper soil
compaction by OHG prior to construction, OHG’s failure to install the stormwater management system required
by the contract, and the installation of improper plumbing materials.
INL and OHG officials were—as of the date of this report—reviewing and discussing a number of remedial
actions to address the damage at the facility, but had not yet agreed who would pay for the needed repairs and
new construction. The contract requires OHG to provide schedules for any construction and corrections of
construction deficiencies. These schedules must be approved by INL before work begins. According to INL
officials, they will soon contract with an independent third party to conduct a geotechnical and materials study
to document the materials that were used in the construction performed by OHG and the existing soil
conditions at the facility. This study will allow INL to determine the underlying causes of building settlement—to


2 This structural damage report was based on site visits conducted by the INL contracting officer’s representative and
engineering staff on August 18, 22, and 28, 2013. INL officials noted that the September 7, 2013, report was intended to
serve as a clear record of existing damage before the warranty period expired. As such, the report provides a record of
latent damages, which INL maintains OHG must address.

SIGAR 14-62-IP/Baghlan Prison                                                                                     Page 2
help decide where liability rests—and ensure excessive settlement does not occur again. In its comments on a
draft version of this report, INL commented that it awarded a contract for geotechnical and materials testing on
May 9, 2014. The performance period for the contract is expected to be 60 days. INL is also putting in place a
mechanism to help ensure that on-site monitoring continues, even though visiting the site is difficult due to
security issues.3


INL AND OHG ARE TAKING STEPS TO ADDRESS CONSTRUCTION DEFICIENCIES,
EXCEPT FOR MAJOR DEFECT IN UNREINFORCED BRICK WALLS

In November 2012, INL determined that OHG completed construction of the prison within expected time,
budget, and quality parameters. However, information that came to light after the prison was completed
indicated that OHG had not fully complied with all contract requirements and terms. Many of the construction
deficiencies may also have been the result of fraudulent actions by the project’s original contracting officer’s
representative—a former embassy employee—and, possibly, OHG personnel. The embassy employee—an
Afghan engineer—was removed from his position in June 2013, amid concerns that he may have colluded with
OHG. In particular, INL suspected that this former employee enabled the contractor to substitute inferior
products and materials, failed to discover substandard construction, approved questionable invoices, and
certified that all contract terms had been met at the time of project turnover to INL, even though construction
deficiencies remained. The Afghan engineer resigned in August 2013. SIGAR investigators are currently
conducting a preliminary inquiry to determine whether any OHG or embassy officials were complicit in these
alleged activities.
The following are examples of construction deficiencies, problems with INL’s oversight, and poor contractor
performance at Baghlan:
        None of the geotechnical reports or design studies conducted for the prison took into account that the
         prison was to be built on a floodplain. The omission of this important information was not addressed
         until March 2013, at which time a flood mitigation project was added as modification 006 to the
         contract, at a cost of approximately $171,000. This flood mitigation project includes building
         perimeter barriers and channels to divert floods away from the prison. OHG’s plans for this project are
         still being reviewed by INL.
        The contract required that OHG construct a stormwater management system to handle all surface
         water run-off. This system was never built, but OHG invoiced INL $170,400 for this work and for a
         security fence that was never built. These invoices were approved by the contracting officer’s
         representative who is now under investigation. OHG has since agreed to build the system and has
         already completed the security fence.
        INL’s September 2013 damage report notes that drain pipes in the showers were disconnected from
         the shower pans due, in part, to OHG using INL-rejected plumbing products, such as flexible hose
         connectors typically used for temporary repairs as opposed to the higher grade products required by
         the contract. INL officials noted that OHG installed these products despite INL rejecting two specific
         requests—dated October 2011 and February 2012—from the company to use lower-grade plumbing
         products. The use of this temporary and low quality flexible tubing contributed to the discharge of
         waste water in the soil around buildings 17, 18, and 19. OHG plans to correct this problem by
         installing INL-approved hose connectors at no cost to the government.
After final inspection and acceptance on November 11, 2012, the contract called for the government to
continue to retain an amount equal to 10 percent of the total contract amount for the duration of the one-year

3 The new oversight mechanism is a draft Indefinite Delivery, Indefinite Quantity contract, which INL plans to use to obtain
local engineering, material testing, and site monitoring services for Baghlan Prison under a task-delivery system. INL
officials noted that, once the contract is in place, they will be able to exercise appropriate oversight of planned remedial
efforts at the site by using Afghan nationals when travel by INL officials is ruled out due to security concerns.

SIGAR 14-62-IP/Baghlan Prison                                                                                         Page 3
warranty period. Government retainage of 10 percent of the total contract amount is intended, among other
things, to guarantee the contractor's correction of any defects during the warranty period. However, INL
officials told us that OHG failed to deduct the required amount from filed invoices and admitted that INL staff
initially failed to catch this omission. INL officials noted that they started to hold back the payment of all filed
invoices beginning with invoice 18 filed in June 2013. To date, they have set aside $251,746, which is
$807,254 less than should have been retained from the costs claimed by the contract during its performance
of the contract.


INL Plans to Use Unreinforced Brick Walls When Rebuilding Structures
Although OHG has taken steps to address construction deficiencies and billing inconsistencies and INL’s
project oversight has improved,4 a serious construction defect remains unaddressed. On April 2, 2014, SIGAR
issued a letter to the Secretary of State and the U.S. Ambassador to Afghanistan, alerting them to problems
associated with the use of unreinforced brick walls between the column supports of the structures at Baghlan
prison.5 This type of construction does not comply with the International Building Code (IBC), even though both
the contract for design of the prison and the contract for construction required IBC compliance. The IBC
requires the use of steel reinforced masonry, such as concrete masonry units with rebar.6

American Concrete Institute (ACI) requirements,7 which are referenced by the IBC, do not allow construction of
unreinforced walls in a seismic zone. Afghanistan is situated in a geologically active region of the world, where
there is a continuous threat of strong earthquakes, and modern seismograph networks show that earthquake
activity is widespread throughout much of the eastern part of the country, where the prison is located.
According to U.S. Geological Survey data, the prison is located in the second highest earthquake hazard zone
in Afghanistan.
However, the drawings submitted by Suraya—the firm contracted to design the facilities—did not show
reinforced masonry walls and did not specify the size or type of reinforcing steel to be used.8 INL and OHG staff
provided no evidence that these designs were ever
questioned, despite their clear nonconformance          Photo 4 - Building 17 under Demolition Showing Brick
with the IBC requirements. On the contrary, INL         Walls with a Small Amount of Reinforcing Steel
accepted the design drawings, and OHG proceeded
to build the facilities without reinforced masonry.
In response to our alert letter, INL provided two
photographs purported to show building 17 during
demolition. According to INL, these photographs
establish that the building had actually been built
using reinforced brick. See photos 4 and 5.
Although these photographs show brick walls that
include a small amount of reinforcing steel, the
construction shown does not, as INL asserts, meet
IBC requirements. The ACI Building Code

                                                               Source: INL, January 22, 2014

4   For example, a new contracting officer’s representative and lead engineer were assigned in 2013.
5   SIGAR 14-45-AL, Baghlan Prison Construction, April 2, 2014.
6Concrete masonry units (or CMU) are hollow concrete blocks, most typically a nominal 16”x8”x8”. The majority of CMU
construction uses steel reinforcing bars (rebar) to tie the block together for a structurally monolithic masonry wall.
7   ACI 530-05 Building Code Requirements for Masonry Structures, section 1.14.2.1.
8   The masonry section of Suraya’s detailed construction specifications stipulate that IBC requirements be met.

SIGAR 14-62-IP/Baghlan Prison                                                                                      Page 4
                                                                                         Requirements for Masonry
Photo 5 - Building 17 under Demolition Showing Brick Walls with a Small                  Structures, referenced by the
Amount of Reinforcing Steel                                                              IBC and incorporated by
                                                                                         reference into

                                                                                         OHG’s contract, provide
                                                                                         minimum reinforcement
                                                                                         requirements for masonry
                                                                                         walls. The remnants of the
                                                                                         walls shown in photos 4 and 5
                                                                                         have small diameter plain wire
                                                                                         horizontal reinforcing, spaced
                                                                                         at approximately 28-inches on-
                                                                                         center, and have no vertical
                                                                                         steel. These two deficiencies
                                                                                         alone indicate that the walls do
Source: INL, January 22, 2014                                                            not meet the requirements for
                                                                                         reinforced masonry walls and,
                                                                                         in fact, do not even comply with
Photo 6 - Concrete Column with Voids and Exposed Reinforcing                             the minimum reinforcing steel
                                                                                         needed to be referred to as
                                                                                         “unreinforced” masonry walls.9
                                                                                Alarmingly, the photos INL
                                                                                provided indicate that the
                                                                                reinforced concrete columns
                                                                                were improperly constructed
                                                                                and that the method of
                                                                                demolition of building 17 was
                                                                                unsafe. Specifically, the heavy
                                                                                concrete roof was left in place,
                                                                                while portions of the brick walls
                                                                                that help support the roof were
                                                                                removed. Although the brick
                                                                                walls contribute very little
Source: INL, April 1, 2014                                                      lateral load resistance,
                                                                                removing them entirely and
allowing these improperly constructed columns to support the five-inch thick concrete roof provided for in the
plans is dangerous. Carrying out demolition in a manner identified in the photos provided could put workers’
safety in jeopardy. The photographs also raise additional concerns regarding the structural integrity of the
columns and the risk of catastrophic failure. Photo 6 shows an example of a structurally deficient column. In
particular, there is severe aggregate segregation10 throughout the column and a void in the concrete three-
and–a-half bricks high that exposes the reinforcing steel, seriously compromising the column’s strength.
Finally, we also question the use of brick walls in structures designed to hold prisoners. Suraya’s drawings did
not call for reinforced walls, as were required under the contract. Instead, the drawings provided for walls three

9   See ACI requirements for Detailed plain (unreinforced) masonry shear walls in ACI 530-05 section 1.14.2.2.2.
10Concrete consists of sand, gravel, or crushed stone (or aggregates) combined with water and Portland cement. The
aggregates make up 60 to 75 percent of the concrete mix and are critical to the strength of the concrete. Segregation of
concrete is separation of ingredients of concrete from each other. In good concrete work, all concrete aggregates are
evenly coated with the water, sand, and cement paste that forms a homogeneous mass. Dropping concrete from heights
over 48-inches and excessively high water content are two common causes of segregation.

SIGAR 14-62-IP/Baghlan Prison                                                                                      Page 5
bricks deep based on wall dimensions. Mortar strength is typically half that of concrete and if mixed by hand in
small batches, as is the case on many Afghan projects, the quality of the mix is highly variable. If the mix for a
portion of a wall varied from other portions, the mortar holding the brick in place could more easily be chipped
away by hand, potentially facilitating prison escapes.
INL officials told us that, when the structures are rebuilt, they expect OHG to comply with the original design
specifications. However, as noted in our April 2, 2014, alert letter, we are concerned that new construction
using similar materials and methods could threaten employee and prisoner safety, as well as the security of the
facility.


BAGHLAN PRISON IS BEING USED DESPITE STRUCTURAL DAMAGE, AND
MAINTENANCE PROBLEMS REQUIRE ATTENTION

Baghlan prison, despite extensive structural damage, is being used to house inmates and suffers from
overcrowding. Although originally designed for 495 inmates, INL reports that the prison’s current population is
777. In addition, prisoners displaced by the demolished building 17 were reassigned to other housing units at
the facility, which exacerbated the overcrowded conditions. INL officials noted that Afghan prison authorities
determine how many prisoners to accommodate at a given facility and added that prison overcrowding is a
common condition in Afghanistan.
The prison also faces two major maintenance issues, which both INL and OHG officials attribute to poor or non-
existent maintenance by the Afghan government. First, both diesel generators, designed to power the entire
prison, are non-operational. Second, the prison’s sewer system is reportedly backed up with debris, including
clothing, bottles, and mop heads.
        In a December 8, 2013, letter and in additional emails, OHG notified INL that both generators were no
         longer functioning due to improper maintenance and operation, including a failure to change the filter
         and oil on the generators, improper start-up and shut-down operations, and an over-reliance on the
         use of each generator’s emergency mode versus automatic mode. According to INL officials, Afghan
         prison staff also failed to understand the generator’s requirement to run at 70-80 percent of capacity
         to avoid permanent engine damage.11 OHG estimated that the total cost of repairs to both generators
         would be approximately $17,000. INL officials have not agreed to pay for these repairs because the
         Afghan government assumed responsibility when it accepted the completed facility. According to INL
         officials, the prison’s power needs are currently being met using a diesel generator purchased with
         assistance from the International Red Cross in July 2012.12
        In a February 1, 2014, letter, OHG notified INL of sewer system back-up problems and the pooling of
         wastewater on the leach field. The letter notes that the Afghan prison staff has “miserably failed to
         implement” approved, periodic operation and maintenance procedures.13 The OHG contract provided
         for training eight workers over 2 days in August 2012 in areas such as sewage maintenance and

11 To operate at maximum efficiency a diesel engine has to have the correct air-to-fuel ratio and be able to sustain its
designed operational temperature for a complete burn of fuel. When a diesel engine is operated on light loads, it will not
attain its correct operating temperature. When the diesel engine runs below its designed operating temperature for
extended periods, unburned fuel is exhausted and collects in the exhaust side of the engine. Over long periods of time,
such deposits can scar and erode key engine surfaces and lead to permanent damage.
12 INL officials agreed that Afghan power costs could have been reduced if a connection to the power grid, in addition to the

diesel generators, had been part of the original project design. As a general rule, commercially-supplied electricity is
cheaper than diesel fuel. A prior director of the General Directorate of Prisons and Detention Center proposed that the
Afghan government fund such a connection. According to INL officials, this proposal has moved forward within the Afghan
government and has been approved pending funding availability from the Afghan Ministry of Finance.
13 OHG’s letter includes a copy of a February 2012 operation and maintenance manual for the sewage collection system

that INL officials confirmed was provided to Afghan authorities. The manual provides detailed instructions on how the
system needed to be maintained in order to ensure its continued effective operation.

SIGAR 14-62-IP/Baghlan Prison                                                                                         Page 6
        electrical systems management, and INL officials stated that seven workers were actually trained.
        From this group, five workers were re-assigned to other prisons by Afghan authorities. INL officials
        further stated that leaving two staff members at Baghlan was consistent with operation and
        maintenance staffing for a prison of its size. However, it is unclear why these two trained staff
        members were not able to prevent the maintenance problems described above.
INL is helping to implement a nationwide prison operation and maintenance program called the Facility
Maintenance Team (FMT) training initiative, which is being implemented through Afghanistan’s Corrections
System Support Program. The FMT initiative was approved by INL in the spring of 2012, and is designed to
enhance the General Directorate of Prisons and Detention Center’s capacity to perform basic facility
maintenance at prisons nationwide. Under the initiative, mobile maintenance teams consisting of electricians,
plumbers, masons, carpenters, and painters will be placed in seven regions. An FMT in the Northeast region
based in Kunduz will provide facility maintenance services for Baghlan prison. The Kunduz FMT completed
training in November 2013, and tools and one maintenance vehicle were recently donated by INL for delivery
to this FMT. Upon receipt, the team is scheduled to begin performing maintenance functions at various
facilities, including Baghlan prison. While the bulk of future funding for these regional FMTs will be provided by
the Afghan government, INL provided initial funding of $800,000. INL expects to provide additional funding of
$80,000 during 2014 to support this initiative. The overall goal of the FMT and the regional maintenance
teams is to assist the Afghans to better manage limited resources devoted to prison maintenance. INL intends
the teams to become an integrated part of the Afghan government’s facility maintenance plans.


CONCLUSION

Although INL has spent $11.3 million to build the Baghlan prison facility, multiple problems remain. One
building at the facility has been demolished and two others have collapsing walls and cracked structural
beams and columns and will likely need to be torn down and rebuilt. Some of the causes for the structural
problems— the contractor’s failure to correctly compact the soil, as INL claims, or unanticipated flooding, as
the contractor claims—are currently in dispute. Negotiations over who will pay for remedial actions are ongoing,
with millions more dollars at stake. What is not in dispute is that OHG is responsible for certain construction
deficiencies, including the failure to construct the required security fence. INL has also acknowledged that the
original contracting officer’s representative for this project conducted poor oversight and management. This
combination of deficiencies in construction and possibly fraudulent activity led to uncompleted work,
overcharges, and part of the prison being unusable. INL’s lack of oversight also contributed to the failure to
retain $807,254 from OHG invoices as a fund to protect INL in the event of performance problems or contract
disputes. To its credit, INL has taken action to address many of these problems and is now pursuing corrective
measures. INL is also working with the Afghan government to develop a nationwide operation and
maintenance system for its prisons to correct specific concerns and avoid future problems, such as the
maintenance problems we found at Baghlan.
However, we remain concerned about the use of unreinforced masonry at Baghlan prison. Rebuilding
structures without steel-reinforced masonry walls between adequately constructed concrete columns can lead
to collapse in areas prone to earthquakes, such as the area in which Baghlan is located. Although INL initially
missed this significant design and construction error, it should now ensure that the contractor follows the IBC
when rebuilding structures. Furthermore, we believe the risk of prisoner escape is increased if this construction
error is repeated because prisoners could more easily break down unreinforced walls.




SIGAR 14-62-IP/Baghlan Prison                                                                               Page 7
RECOMMENDATIONS

To ensure the safety and security of the inmates and workers at Baghlan prison and to ensure the U.S.
government receives the highest value for its contract dollars, SIGAR recommends that the Secretary of State
direct INL to:
    1. Recoup $807,254 in payments to OHG that should have been retained by INL in order to protect its
       interests in the event of a contract dispute. If this is not done within 90 days, we will refer the matter
       to SIGAR’S Investigations Directorate.

    2. Require that any rebuilding at Baghlan prison comply with IBC and ACI requirements stipulated in the
       contract regarding the use of steel-reinforced masonry walls and report back to SIGAR within 90 days
       that these requirements have been met.
    3. Determine the structural adequacy of the other buildings constructed under the contract and take
       action to repair or replace those found to be structurally inadequate, and report the plans for
       corrective actions to SIGAR within 90 days.
    4. Require the contractor to provide and follow an INL-approved demolition safety plan and report back
       to SIGAR within 90 days that a safety plan has been developed.


AGENCY COMMENTS

INL provided written comments on a draft of this inspection report that are reproduced in appendix II. INL
commented that it continues to actively address the identified deficiencies at Baghlan prison including
instructing its contractor to submit corrective action and safety plans to INL for approval. INL also commented
that it awarded a contract to test whether or not appropriate soil compaction was performed by the contractor
and whether the contractor used construction materials with appropriate properties. In addition, INL
commented that it is putting in place a construction monitoring and reporting contract to track daily renovation
and reconstruction activities at Baghlan prison to supplement oversight conducted by INL personnel.
INL generally agreed with our four recommendations and detailed the steps it is taking to implement them. For
example, with regard to our first recommendation, INL commented that an amount equal to ten percent of the
contract amount for the duration of the one-year warranty should have been withheld. According to INL, the
State Department intends to pursue all remedies available to it to protect the U.S. government’s interests.
INL also agreed with our second recommendation, but commented that it did in fact adhere to the
requirements for construction in an earthquake zone in its initial design and planning. Nevertheless, INL
acknowledges that its contractor did not follow the contract specifications. INL stated that it will continue to
hold the contractor accountable to rectify deficient construction and will ensure that reinforced masonry
compliant with IBC standards is used in any future reconstruction.
With regard to our third recommendation, INL commented that it awarded a contract on May 9, 2014, to
conduct soil and construction materials testing at Baghlan prison, which will enable the State Department to
identify any possible further issues at the site as well as further actions that may be required to address them.
Finally, INL agreed with our fourth recommendation and commented that it has demanded that its contractor
submit a corrective action plan for demolition activities and an associated demolition safety plan for INL
approval.
In our view, INL’s actions are generally responsive to our recommendations and we will monitor its
implementation of these actions as part of our regular recommendation follow-up activities.
INL also provided technical comments that we incorporated into the report, as appropriate.


SIGAR 14-62-IP/Baghlan Prison                                                                                Page 8
APPENDIX I - SCOPE AND METHODOLOGY
To assess (1) the Department of State’s Bureau of International Narcotics and Law Enforcement’s (INL)
management and oversight of construction of the Baghlan regional prison, and (2) whether the facility was
being used as intended and maintained, we

       reviewed contract documents, design submittals, site visit reports, and other relevant project
        documentation;
       conducted an engineering assessment of the facility drawings, the construction methods used, and
        the seismic zone and relevant code requirements for the location of the prison; and
       interviewed cognizant U.S. government officials concerning the facility’s construction and
        maintenance.
SIGAR conducted its work in Kabul, Afghanistan from January to May 2014. We were unable to conduct a site
visit to the regional prison in Baghlan Province because of security conditions, but were able to review an
extensive collection of prior site visits conducted by INL staff and contractors. Our work was conducted in
accordance with the Quality Standards for Inspection and Evaluation, published by the Council of the
Inspectors General on Integrity and Efficiency. The engineering assessment was conducted by a professional
engineer in accordance with the National Society of Professional Engineers’ Code of Ethics for Engineers. We
did not rely on computer-processed data in conducting this inspection. However, we considered the impact of
compliance with laws and fraud risk.
We believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on
our inspection objectives. SIGAR conducted this inspection under the authority of Public Law No. 110-181, as
amended and the Inspector General Act of 1978, as amended.




SIGAR 14-62-IP/Baghlan Prison                                                                            Page 9
APPENDIX II - COMMENTS FROM THE DEPARTMENT OF STATE’S BUREAU OF
INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT




SIGAR 14-62-IP/Baghlan Prison                               Page 10
SIGAR 14-62-IP/Baghlan Prison   Page 11
SIGAR 14-62-IP/Baghlan Prison   Page 12
SIGAR 14-62-IP/Baghlan Prison   Page 13
APPENDIX III - SIGAR’S APRIL 2, 2014 ALERT LETTER AND INL’S RESPONSE




SIGAR 14-62-IP/Baghlan Prison                                     Page 14
SIGAR 14-62-IP/Baghlan Prison   Page 15
SIGAR 14-62-IP/Baghlan Prison   Page 16
SIGAR 14-62-IP/Baghlan Prison   Page 17
                Photo 5 - Concrete Column with Voids and Exposed Reinforcing




                Source: INL on April 1, 20 14.



                We are concerned that additional structura l damage as a result of this type of demol ition and new
                const ruction using similar materials and methods could threaten employee and prisoner safety and t he
                secu rity of the facil ity. Therefore, we suggest that INL reconsider its plan and direct t hat the structures be
                rebuilt using reinforced masonry between concrete columns, as called for in the International Building
                Code.

                Should you have any questions or need additional information, please contact Elizabeth Field, Assistant
                Inspector General for Audits and Inspections, at                    or                            , or Ryan
                Coles, Principal Deputy Assist ant Inspector General for Aud its and Inspections, at
                • • • • • • • • • . Thank you in advance for your attention to this matter.




                 John F. Sopko
                 Special Inspector General
                  for Afghanistan Reconstruction




                SIGAR 14-45-Al/Baghlan Prison Const ruction




SIGAR 14-62-IP/Baghlan Prison                                                                                                       Page 18
SIGAR 14-62-IP/Baghlan Prison   Page 19
SIGAR 14-62-IP/Baghlan Prison   Page 20
APPENDIX IV - ACKNOWLEDGEMENTS

Scott Harmon, Senior Inspections Manager
Brian Flynn, Senior Audit Manager
Michael ten Kate, Inspector-in-Charge
Ron Riach, P.E., Engineer




SIGAR 14-62-IP/Baghlan Prison              Page 21
                                This inspection report was conducted
                                  under project code SIGAR-I-012.




SIGAR 14-62-IP/Baghlan Prison                                          Page 22
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
